No. _________
================================================================================================================

In The

Supreme Court of the United States
---------------------------------♦--------------------------------ALI MOHAMED ELATRACHE,
Petitioner,
vs.
SHANE JACKSON, WARDEN,
Respondent.
---------------------------------♦--------------------------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Sixth Circuit
---------------------------------♦--------------------------------PETITIONER’S APPENDIX
---------------------------------♦--------------------------------CRAIG A. DALY, P.C.
Attorney for Petitioner Elatrache
615 Griswold, Suite 820
Detroit, Michigan 48226
(313) 963-1455
Email: 4bestdefense@sbcglobal.net
================================================================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
TABLE OF APPENDIX CONTENTS
Page
Order, United States Court of Appeals for the
Sixth Circuit, dated December 23, 2020 ......... App. 1
Opinion and Order denying the Habeas Corpus
Petition and Denying a Certificate of Appealability and Judgment, dated August 11, 2020 .... App. 14

App. 1
No. 20-1881
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
)
)
)
Petitioner-Appellant,
) ORDER
v.
) (Filed Dec. 23, 2020)
)
SHANE JACKSON, Warden,
)
Respondent-Appellee )
ALI MOHAMED
ELATRACHE,

Before: DONALD, Circuit Judge.
Ali Mohamed Elatrache, a Michigan prisoner, appeals the district court’s judgment denying his petition
for a writ of habeas corpus ﬁled under 28 U.S.C. § 2254.
He has ﬁled an application for a certiﬁcate of appealability. See Fed. R. App. P. 22(b)(1).
Elatrache was charged with ﬁrst-degree premeditated murder, ﬁrst-degree felony murder, ﬁrst-degree
home invasion, and aggravated stalking. These charges
stemmed from allegations that Elatrache stalked his
girlfriend, S.A., and later killed her 72-year-old father
during a home invasion in July 2013. Elatrache
pleaded guilty to the stalking charge but proceeded to
trial on the remaining counts where a jury convicted
him of felony murder and second-degree murder (as a
lesser offense of premeditated murder) but acquitted
him of the home invasion charge. The trial court

App. 2
sentenced him to an aggregate term of life imprisonment without the possibility of parole.
On direct appeal, Elatrache argued that: (1) the
trial court erred by not instructing the jury on certain
lesser-included offenses; (2) the trial court violated his
right to a unanimous jury verdict by instructing the
jury that they did not have to reach a unanimous decision on the alternate theories for the home-invasion
charge supporting his felony-murder conviction; (3) the
trial court violated his confrontation rights by not ordering the prosecutor to disclose the presentence investigation reports of a jailhouse informant, and also
the prosecutor violated Brady v. Maryland, 373 U.S. 83
(1963), by not disclosing all information concerning the
informant; (4) the prosecutor committed misconduct by
making an inﬂammatory opening statement; (5) the
trial court erred by: (a) permitting the prosecutor to introduce bad-acts evidence, (b) not severing the stalking
charge from the remaining charges, and (c) not allowing him to plead no contest to the stalking charge; and
(6) trial counsel rendered ineffective assistance by not:
(a) objecting to certain testimony by the jailhouse informant, and (b) requesting a jury instruction on the
accident. The Michigan Court of Appeals afﬁrmed. People v. Elatrache, No. 324918, 2016 WL 1578937, at *19
(Mich. Ct. App. Apr. 19, 2016) (per curiam), perm. app.
denied, 887 N.W.2d 407 (Mich. 2016).
In August 2017, Elatrache ﬁled a § 2254 habeas
petition, in which he reasserted the claims that he advanced on direct appeal. The district court denied
Elatrache’s habeas petition and declined to issue him

App. 3
a COA after concluding that his claims were either
procedurally defaulted or without merit. Elatrache v.
Stewart, No. 2:17-cv-12488, 2020 WL 4596816, at *3-15
(E.D. Mich. Aug. 11, 2020). This appeal followed.
Elatrache now seeks a COA from this Court as to
each of his claims. A COA may be issued “only if the
applicant has made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2);
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003). In order
to be entitled to a COA, the movant must demonstrate
“that jurists of reason could disagree with the district
court’s resolution of his constitutional claims or that
jurists could conclude that the issues presented are adequate to deserve encouragement to proceed further.”
Miller-El, 537 U.S. at 327. When the district court
“denies a habeas petition on procedural grounds
without reaching the prisoner’s underlying constitutional claim,” the petitioner can satisfy § 2253(c)(2) by
establishing that “jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
484 (2000).
Claim One. Elatrache argued that the trial court
erred by not instructing the jury on voluntary and involuntary manslaughter where the evidence revealed
that the victim suffered from a bad heart. But “the
Constitution does not require a lesser-included offense
instruction in non-capital cases.” Campbell v. Coyle,
260 F.3d 531, 541 (6th Cir. 2001); see Bagby v. Sowders,
894 F.2d 792, 795-97 (6th Cir. 1990) (en banc). Thus, in
non-capital cases, state courts are not constitutionally

App. 4
required to instruct the jury on lesser-included offenses, regardless of whether the instructions are supported by the evidence. Scott v. Ela, 302 F.3d 598, 606
(6th Cir. 2002); Bagby, 894 F.2d at 795-97. Rather, such
a claim warrants federal habeas relief, if at all, only in
the rare instance that “a fundamental miscarriage of
justice is found to have resulted from the arbitrary and
unsupportable denial of a lesser included offense instruction in clear deﬁance of state law.” Bagby, 894
F.2d at 795 (suggesting that habeas relief would be
warranted only if the failure to give the requested instruction was “likely to have resulted in the conviction
of an innocent person”); see also McMullan v. Booker,
761 F.3d 662, 667 (6th Cir. 2014). Elatrache made no
such showing. Because this claim does not state a cognizable claim for habeas relief, reasonable jurists could
not disagree with the district court’s rejection of this
claim.
To the extent that Elatrache claimed that the trial
court’s refusal to instruct the jury on lesser-included
offenses violated his constitutional right to a trial by
jury or to have the jury instructed on his defense that
he did not commit a murder, such a claim does not deserve encouragement to proceed further. See Miller-El,
537 U.S. at 327. While Elatrache cited Mathews v.
United States, 485 U.S. 58 (1988), for the proposition
that “a defendant is entitled to an instruction as to any
recognized defense for which there exists evidence sufﬁcient for a reasonable jury to ﬁnd in his favor,” id. at
63, he “overlooks the reality that Mathews is not a
constitutional case,” Keahey v. Marquis, 978 F.3d 474,

App. 5
480-81 (6th Cir. 2020) (citing Mathews, 485 U.S. at 66).
Rather, the Mathews Court “directly reviewed a district court’s interpretation of federal common law,
holding that a federal defendant ‘is entitled to an
entrapment instruction whenever there is sufficient
evidence from which a reasonable jury could ﬁnd entrapment,’ ” which “is a world of difference from a habeas challenge to a state court decision.” Id. at 481
(quoting Mathews, 485 U.S. at 62).
Claim Two. While Elatrache argued that the trial
court violated his right to a unanimous jury verdict by
instructing the jury that it did not have to reach a
unanimous decision on the alternate theories for the
home-invasion charge supporting his felony-murder
conviction, he procedurally defaulted this claim. A petitioner procedurally defaults a claim in state court
when: (1) he fails to comply with a state procedural
rule; (2) the state courts enforce that rule; (3) the rule
is an adequate and independent state ground for
denying review of the federal constitutional claim; and
(4) the petitioner cannot show cause and prejudice excusing the default. Williams v. Burt, 949 F.3d 966, 972
(6th Cir. 2020), cert. denied, 2020 WL 5882505 (U.S.
Oct. 5, 2020); Clifton v. Carpenter, 775 F.3d 760, 763-64
(6th Cir. 2014).
The record reﬂects that defense counsel did not object to the disputed instruction. Indeed, counsel indicated his satisfaction with the instruction as read to
the jury. The Michigan Court of Appeals relied on counsel’s lack of objection and expression of satisfaction as
a waiver of any error, Elatrache, 2016 WL 1578937, at

App. 6
*10, and this waiver is well-established by Michigan
law, see People v. Kowalski, 803 N.W.2d 200, 211 (Mich.
2011). Moreover, Michigan’s contemporaneous-objection and waiver rules are adequate and independent
state procedural grounds for barring habeas relief. See
Taylor v. McKee, 649 F.3d 446, 450-51 (6th Cir. 2011);
McKissic v. Birkett, 200 F. App’x 463, 470-71 (6th Cir.
2006). Although Elatrache asserted that counsel’s ineffectiveness excused his procedural default of this
claim, ineffective assistance of trial counsel cannot
serve as cause for his default because the claim regarding trial counsel’s ineffectiveness is itself unexhausted.
See Edwards v. Carpenter, 529 U.S. 446, 451-53 (2000).
And Elatrache failed to demonstrate cause and prejudice or actual innocence to permit review of this procedurally defaulted claim. See Murray v. Carrier, 477
U.S. 478, 485-86, 495-96 (1986). Reasonable jurists
therefore could not debate the district court’s procedural ruling with respect to this claim.
Claim Three. Elatrache asserted that the trial
court violated his Sixth Amendment right of confrontation by not ordering the prosecutor to disclose the
presentence investigation reports of its jailhouse informant, Mark Joseph Fragel, which he claimed could
have been used for impeachment purposes. Fragel testiﬁed that Elatrache made several incriminating admissions to him while they were conﬁned in jail
together, including that he had murdered the victim.
“Generally speaking, the Confrontation Clause guarantees an opportunity for effective cross-examination,
not cross-examination that is effective in whatever

App. 7
way, and to whatever extent, the defense might wish.”
Delaware v. Fensterer, 474 U.S. 15, 20 (1985). “[T]rial
judges retain wide latitude insofar as the Confrontation Clause is concerned to impose reasonable limits
on such cross-examination.” Delaware v. Van Arsdall,
475 U.S. 673, 679 (1986). “Where it is merely the extent
of cross-examination that is limited, the trial judge retains a much wider latitude of discretion. . . .” Dorsey
v. Parke, 872 F.2d 163, 167 (6th Cir. 1989). “Where the
trial court limits the extent of cross-examination, the
inquiry for the reviewing court is ‘whether the jury had
enough information, despite the limits placed on otherwise permitted cross-examination, to assess the defense theory.’ ” Stewart v. Wolfenbarger, 468 F.3d 338,
347 (6th Cir. 2006) (quoting Dorsey, 872 F.2d at 167).
Prior to trial, defense counsel unsuccessfully
moved the trial court to order the prosecutor to produce all of Fragel’s past presentence investigation reports so that he could examine the full extent of
Fragel’s criminal and psychiatric history. In denying
habeas relief, the district court determined that “[t]he
jury had enough information, despite the limits placed
on the cross-examination of Fragel, to assess the witness’s credibility.” To that end, the district court noted
that Fragel admitted on direct examination “that he
had an extensive criminal background which included
property crimes, drug offenses, and some domestic violence; he also admitted that he had a drug addiction at
one time.” Fragel also admitted on cross-examination
that he had committed twelve felonies and sixteen misdemeanors over the course of a fourteen-year period.

App. 8
The district court observed that “[d]efense counsel was
then permitted to question Fragel in detail about his
criminal history in three counties, his current offense,
and the favorable deal he received from the prosecution in exchange for his testimony against Elatrache.”
Considering the foregoing, reasonable jurists could not
debate the district court’s determination that the trial
court’s ruling did not violate the Confrontation Clause.
See Stewart, 468 F.3d at 347.
Elatrache also argued that the prosecutor violated
Brady by withholding information that the defense
could have used to attack Fragel’s credibility. The
Michigan Court of Appeals rejected this claim because
there was “absolutely no evidence that the prosecutor
had any of the alleged [Brady material] in his possession.” Elatrache, 2016 WL 1578937, at *13. The district
court determined that the state appellate court’s denial of Elatrache’s Brady claim was objectively reasonable, agreeing that Elatrache “merely speculated that
material evidence was suppressed.” Reasonable jurists
could not debate the district court’s denial of this claim.
See United States v. Guzman, 571 F. App’x 356, 365 (6th
Cir. 2014) (noting that allegations “based on mere speculation and conjecture” are insufﬁcient to demonstrate
a Brady violation).
Claim Four. Elatrache contended that the prosecutor committed misconduct by making an inﬂammatory
opening statement that unfairly attacked his character—chieﬂy by highlighting vulgar text and phone
messages that he sent to S.A., as well as his threats to
kill the prosecutors and the lead detective on his case.

App. 9
When a court reviews a prosecutorial-misconduct
claim in a habeas proceeding, “[t]he relevant question
is whether the prosecutors’ comments ‘so infected the
trial with unfairness as to make the resulting conviction a denial of due process.’ ” Darden v. Wainwright,
477 U.S. 168, 181 (1986) (quoting Donnelly v. DeChristoforo, 416 U.S. 637, 643 (1974)). If a prosecutor acted
improperly, relief is available “only if the statements
were so ﬂagrant as to render the entire trial fundamentally unfair.” Bowling v. Parker, 344 F.3d 487, 512
(6th Cir. 2003).
The Michigan Court of Appeals concluded that
Elatrache was not denied a fair trial since “[t]he prosecutor did nothing more than repeat defendant’s own
words” and “did not make any statements that were
not subsequently supported by the evidence presented during trial.” Elatrache, 2016 WL 1578937, at
*14. The district court concluded that the state appellate court’s adjudication of this claim was objectively
reasonable. Although the district court acknowledged
that “the prosecutor’s remarks about Elatrache during opening statements were pronounced and persistent,” it agreed that the “remarks were based
on the evidence, as opposed to the prosecutor’s personal opinion or some misstatement of the facts,” and
were also proper because they “provided context for
the prosecution’s case because they demonstrated
Elatrache’s animosity and anger toward the victim
and S[.A].” Reasonable jurists could not debate the
district court’s rejection of this claim. See United
States v. McShan, 757 F. App’x 454, 462 (6th Cir. 2018)

App. 10
(rejecting a prosecutorial-misconduct claim where the
prosecutor’s remarks during opening statement were
supported by the evidence presented at trial or were
reasonable inferences drawn therefrom).
Claim Five. Elatrache argued that the trial court
erred by permitting the prosecutor to introduce badacts evidence—including evidence of aggravating stalking, several break-ins, and credit card fraud—because
those acts were all directed toward S.A., not the victim.
Generally, state evidentiary issues are not cognizable
on federal habeas review. See Estelle v. McGuire, 502
U.S. 62, 67-68 (1991). An evidentiary ruling may violate due process and warrant habeas relief only when
the “ruling is so egregious that it results in a denial of
fundamental fairness.” Bugh v. Mitchell, 329 F.3d 496,
512 (6th Cir. 2003). This Court has recognized that
“[t]here is no clearly established Supreme Court precedent which holds that a state violates due process by
permitting propensity evidence in the form of other
bad acts evidence”; therefore, the admission of such evidence is not “contrary to” clearly established federal
law under the Antiterrorism and Effective Death Penalty Act. Id.; 28 U.S.C. § 2254(d)(1). Accordingly, reasonable jurists could not debate the district court’s
denial of Elatrache’s “other acts” claim.
Elatrache further argued that the trial court erred
by not severing the stalking charge from the remaining
charges, and also by not allowing him to plead no contest to the stalking charge. Reasonable jurists could
not debate the district court’s rejection of these claims
because they present issues of state law that are not

App. 11
cognizable on federal habeas review. See Estelle, 502
U.S. at 67-68. To be sure, the Supreme Court has stated
that “misjoinder would rise to the level of a constitutional violation . . . if it results in prejudice so great as
to deny a defendant his Fifth Amendment right to a
fair trial.” United States v. Lane, 474 U.S. 438, 446 n.8
(1986). But this Court has said that this language from
Lane is merely dicta, which is an insufﬁcient basis on
which to grant federal habeas relief. Mayﬁeld v. Morrow, 528 F. App’x 538, 541-42 (6th Cir. 2013) (citing
Williams v. Taylor, 529 U.S. 362, 412 (2000)).
Claim Six. Elatrache asserted two instances where
trial counsel allegedly rendered ineffective assistance.
To establish ineffective assistance of counsel, a habeas
petitioner must show that his attorney’s performance
was objectively unreasonable and that he was prejudiced as a result. Strickland v. Washington, 466 U.S.
668, 687 (1984). The performance inquiry requires the
defendant to “show that counsel’s representation fell
below an objective standard of reasonableness.” Id. at
688. Counsel is “strongly presumed to have rendered
adequate assistance and made all signiﬁcant decisions
in the exercise of reasonable professional judgment.”
Id. at 690.
Elatrache argued that counsel was ineffective for
not objecting to Fragel’s testimony that he (Elatrache)
told him that he was going to have the prosecutors and
the lead detective on his case killed, and also by not
requesting a jury instruction on accident. In rejecting
this claim, the Michigan Court of Appeals noted that it
was “left to guess defense counsel’s thoughts” because

App. 12
Elatrache had not requested a Ginther1 hearing.
Elatrache, 2016 WL 1578937, at *19. The state appellate court surmised that it was “very likely . . . that
defense counsel decided not to object to Fragel’s testimony as a tactical matter in order to avoid drawing additional attention to it.” Id. It also determined that
counsel was not ineffective for not seeking an accident
instruction because the record—which showed that
Elatrache “struck the victim on the head numerous
times and strangled him with his hands”—did not support such an instruction. Id. at *6-8, 19.
The district court concluded that the state appellate court neither contravened nor unreasonably
applied Strickland when adjudicating this claim. In
reaching that conclusion, the district court agreed that
counsel’s failure to object to Fragel’s disputed testimony was strategic because he may have feared drawing attention to that testimony. See United States v.
Caver, 470 F.3d 220, 244 (6th Cir. 2006) (“[N]ot drawing
attention to [a] statement may be perfectly sound from
a tactical standpoint.”). The district court also agreed
that it would have been futile for counsel to have requested an accident instruction considering the evidence that was adduced at trial—namely Fragel’s
aforementioned testimony and the medical examiner’s
testimony that the victim had been strangled and hit
on the head several times with a blunt object. See Sutton v. Bell, 645 F.3d 752, 755 (6th Cir. 2011) (noting
1

See People v. Ginther, 212 N.W.2d 922 (Mich. 1973) (outlining Michigan’s process for developing facts to support an ineffective-assistance-of-counsel claim).

App. 13
that counsel is not ineffective for not pursuing a meritless issue or argument). Considering the foregoing,
reasonable jurists could not debate the district court’s
resolution of this claim.
Accordingly, Elatrache’s COA application is DENIED.
ENTERED BY ORDER
OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 14
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
Case No. 2:17-cv-12488

ALI MOHAMED
ELATRACHE,

HONORABLE
STEPHEN J. MURPHY, III

Petitioner,
v.
ANTHONY STEWART,
Respondent.

/

OPINION AND ORDER DENYING THE
HABEAS CORPUS PETITION [1] AND
DENYING A CERTIFICATE OF APPEALABILITY
(Filed Aug. 11, 2020)
Petitioner Ali Mohamed Elatrache, a state prisoner, sought a writ of habeas corpus pursuant to 28
U.S.C. § 2254. ECF 1. Elatrache was convicted of ﬁrstdegree felony murder, in violation of Mich. Comp.
Laws § 750.316(1)(b), and challenged his conviction
on grounds that the trial court, the prosecutor, and
his trial attorney violated his constitutional rights.
Id. at 4-6, 9-10. Respondent countered that Elatrache’s
claims lack merit, were waived, are not cognizable on
habeas review, are procedurally defaulted, or were reasonably adjudicated by the Michigan Court of Appeals.
ECF 4, PgID 123-24, 146, 159, 171, 184, 192, 205, 215.
Based on the following reasons, the Court will deny
Elatrache’s petition.

App. 15
BACKGROUND
Elatrache was charged in Wayne County, Michigan with ﬁrst-degree premeditated murder, Mich.
Comp. Laws § 750.316(1)(a), ﬁrst-degree felony murder, Mich. Comp. Laws § 750.316(1)(b), first-degree home
invasion, Mich. Comp. Laws § 750.110a(2)(b), and aggravated stalking, Mich. Comp. Laws § 750.411i(2)(c).
ECF 5-1. Elatrache pleaded guilty to the stalking
charge and then was tried before a jury in Wayne
County Circuit Court on the remaining charges. People
v. Elatrache, No. 324918, 2016 WL 1578937, at *1
(Mich. Ct. App. Apr. 19, 2016).
The charges arose from allegations that Elatrache
stalked his girlfriend (“S”) and later killed her father
during a home invasion.1 In February 2013, Elatrache
and S began dating after meeting at her job. Id. S testiﬁed that within several weeks of dating, Elatrache
began acting jealous and erratic and caused issues for
her at work. Id. Because of these issues, S wanted to
break up with Elatrache but ultimately ended up staying with him because she was afraid of him and what
he might do to her. Id.
At some point during the relationship, Elatrache
got a hold of S’s apartment keys. Id. After this, S noticed a number of events that caused her concern, including that her laptop and phones went missing, her
father’s laptop went missing, her apartment’s door was
1

The Court will refer to the girlfriend as “S” to be consistent
with how the state appellate court referred to her in its dispositive
opinion.

App. 16
set on ﬁre, suspicious voices would interrupt her phone
calls with Elatrache, her father’s car was vandalized,
and her bank account was emptied with a missing a
debit card. Id. at *1-3. Elatrache told S that he believed
the events were the result of someone that was after
her father. Id. at *1-2. S soon became suspicious that
Elatrache was involved in the events, and after she
confronted him about them, he admitted to everything.
Id. at *3. Following his admission, Elatrache started
stalking S and threatening her and her father. Id.
During this time, Elatrache was in and out of the
country. Id. at *1-3. When he returned to the United
States in May 2013, S began to receive “creepy,” aggressive, and inappropriate texts from an unknown number. Id. at *3. Even though she suspected the messages
were from Elatrache, she continued to speak with him
because she wanted to keep him calm. Id. But the messages only got more aggressive and threatening. Id. at
*4. On July 18, 2013, S returned home from work,
found her apartment door open, and found her father
dead on the ﬂoor of his bedroom. Id. After the murder,
S looked through her father’s personal belongings and
discovered that Elatrache was sending threats directly
to her father as well. Id. Elatrache was arrested in
Canada after attempting to call S. Id.
On October 17, 2014, the jury found Elatrache
guilty of second-degree murder, Mich. Comp. Laws
§ 750.317, as a lesser offense of premeditated murder,
and felony murder, Mich. Comp. Laws § 750.316(1)(b).
ECF 5-17, PgID 1622-24. The jury acquitted Elatrache
of home invasion. Id. at 1623. On November 3, 2014,

App. 17
the trial court sentenced Elatrache to a term of three
to ﬁve years’ imprisonment for his guilty plea for stalking and life imprisonment without the possibility of parole for the felony murder conviction. ECF 5-18, PgID
1644. The trial court also sentenced Elatrache to a
term of sixty to ninety years’ imprisonment for seconddegree murder, but then stated that the second-degree
murder conviction and sentence would be vacated for
appellate purposes. Id. at 1645.
Elatrache, through counsel, appealed his convictions and sentence, and on April 19, 2016, the Michigan
Court of Appeals afﬁrmed his convictions and sentence.
See Elatrache, 2016 WL 1578937 at *1. Elatrache then
ﬁled an application for leave to appeal in the Michigan
Supreme Court, which was denied on November 30,
2016. People v. Elatrache, 500 Mich. 898 (2016).
On August 1, 2017, Elatrache ﬁled the present habeas corpus petition through counsel. ECF 1. He raised
the following six claims:
1. He was denied due process of law and a
fair trial when the trial judge refused to instruct the jury on the lesser offenses of voluntary and involuntary manslaughter because
those necessarily included offenses were supported by a rational view of the evidence.
2. He was denied his constitutional right to
a unanimous jury verdict and therefore a fair
trial when the trial judge instructed the jurors that they did not have to be unanimous
on alternate theories for the home invasion

App. 18
charge supporting the felony murder conviction.
3. He was denied his right of confrontation,
due process and a fair trial when the trial
court refused to compel disclosure of the
presentence investigation reports of a critical
prosecution witness.
4. He was denied a fair trial by arguments
and evidence which were inﬂammatory and
unfairly prejudicial regarding his relationship with the decedent’s daughter and his
(Elatrache’s) alleged threats to kill the assistant prosecutors and the ofﬁcer-in-charge.
5. He was denied a fair trial when the trial
court erroneously admitted extensive evidence of other criminal activity attributed to
him, including aggravated stalking, several
break-ins, thefts, credit card fraud, and arson.
6. He was denied his right to effective assistance of counsel when his trial attorney failed
to object to inadmissible and inﬂammatory
testimony from a jailhouse informant that he
(Elatrache) allegedly threatened to kill both
prosecutors and the ofﬁcer in charge, and
failed to request an accident instruction.
Id. at 4-6, 9-10.
LEGAL STANDARD
The Court may only grant habeas relief to a state
prisoner if his claims were adjudicated on the merits
and the state court adjudication was “contrary to” or

App. 19
resulted in an “unreasonable application of clearly established federal law. 28 U.S.C. § 2254(d)(1). “A state
court’s decision is ‘contrary to’ . . . clearly established
law if it ‘applies a rule that contradicts the governing
law set forth in [Supreme Court cases]’ or if it ‘confronts a set of facts that are materially indistinguishable from a decision of [the Supreme] Court
and nevertheless arrives at a result different from
[the] precedent.” Mitchell v. Esparza, 540 U.S. 12, 1516 (2003) (quoting Williams v. Taylor, 529 U.S. 362,
405-06 (2000)).
A state court unreasonably applies Supreme
Court precedent only when its application of precedent
is “objectively unreasonable.” Wiggins v. Smith, 539
U.S. 510, 520-21 (2003) (internal citations omitted). A
merely “incorrect or erroneous” application is insufﬁcient. Id. “A state court’s determination that a claim
lacks merit precludes federal habeas relief so long as
‘fairminded jurists could disagree’ on the correctness
of the state court’s decision.” Harrington v. Richter, 562
U.S. 86, 101 (2011) (quoting Yarborough v. Alvarado,
541 U.S. 652, 654 (2004)). A federal court reviews only
whether a state court’s decision comports with clearly
established federal law as determined by the Supreme
Court at the time the state court renders its decision.
Greene v. Fisher, 565 U.S. 34, 38 (2011). A state court
need not cite to or be aware of Supreme Court cases,
“so long as neither the reasoning nor the result of the
state-court decision contradicts them.” Early v. Packer,
537 U.S. 3, 8 (2002). Decisions by lower federal courts
“may be instructive in assessing the reasonableness of

App. 20
a state court’s resolution of an issue.” Stewart v. Erwin,
503 F.3d 488, 493 (6th Cir. 2007) (citing Williams v.
Bowersox, 340 F.3d 667, 671 (8th Cir. 2003)).
DISCUSSION
I.

The Lack of Jury Instructions on Lesser-Included Offenses

Elatrache alleged that he was denied due process
and a fair trial when the trial court refused to instruct
the jury on the lesser offenses of voluntary and involuntary manslaughter. ECF 1, PgID 36. He contended
that both voluntary and involuntary manslaughter
were necessarily included offenses of murder and that
the evidence supported jury instructions on both offenses. Id.
Elatrache argued that an instruction on voluntary
manslaughter was warranted because the jurors could
have concluded that the victim died of heart failure,
triggered or exacerbated by a struggle with Elatrache,
and therefore he was guilty only of voluntary manslaughter. Id. at 46. And Elatrache asserted that an instruction on involuntary manslaughter was supported
by evidence that he approached the victim without a
weapon and that the confrontation escalated into the
use of non-deadly force with an intent to injure, but no
malice. Id. at 47. The state trial court determined that
there was insufﬁcient evidence to justify jury instructions on manslaughter, and the Michigan Court of Appeals upheld the trial court’s decision. Elatrache, 2016
WL 1578937, at *6-7.

App. 21
Elatrache’s claim lacks merit because the Supreme Court has not determined whether the failure
to give jury instructions on lesser-included offenses in
non-capital cases violates the right to due process. See
Beck v. Alabama, 447 U.S. 625, 638 n.14 (1980) (stating
that “[w]e need not and do not decide whether the Due
Process Clause would require the giving of such instructions in a noncapital case”). Thus, the “failure to
instruct on a lesser included offense in a noncapital
case is not ‘such a fundamental defect as inherently
results in a miscarriage of justice or an omission inconsistent with the rudimentary demands of fair procedure.’ ” Scott v. Elo, 302 F.3d 598, 606 (6th Cir. 2002)
(quoting Bagby v. Sowders, 894 F.2d 792, 797 (6th Cir.
1990) (en banc)).
And even if the case were deemed comparable to a
capital case,2 a defendant is entitled to a jury instruction on a recognized defense only if there is sufﬁcient
evidence for a reasonable jury to ﬁnd in his or her favor. Mathews v. United States, 485 U.S. 58, 63 (1988).
“A lesser-included offense instruction is therefore
not required when the evidence does not support it,”
Campbell v. Coyle, 260 F.3d 531, 541 (6th Cir. 2001),
and for the following reasons, the evidence did not support a jury instruction on either voluntary or involuntary instruction.

2

Elatrache was charged with ﬁrst-degree murder, an offense
that carries the State’s most severe penalty upon conviction: life
imprisonment without the possibility of parole. See Mich. Comp.
Laws § 750.316(1).

App. 22
A. Voluntary Manslaughter
In Michigan, “[m]urder and manslaughter are
both homicides and share the element of being intentional killings. However, the element of provocation
which characterizes the offense of manslaughter separates it from murder.” People v. Pouncey, 437 Mich. 382,
388 (1991). Voluntary manslaughter has the following
components: “First, the defendant must kill in the heat
of passion. Second, the passion must be caused by an
adequate provocation. Finally, there cannot be a lapse
of time during which a reasonable person could control
his passions.” Id. The provocation is adequate if it
would cause a reasonable person to lose control. Id. at
389.
At trial, defense counsel supported his request for
a jury instruction on voluntary manslaughter by arguing that there were pre-existing ill feelings between
Elatrache and the victim and that there was some type
of altercation between the two men. ECF 5-14, PgID
1462. Nevertheless, when the trial court asked defense
counsel about the basis for the altercation and what
could have caused the emotional disturbance to be reasonable, defense counsel stated that he had no further
argument on that issue. Id. at 1463. The trial court
then declined to give a jury instruction on voluntary
manslaughter because there was no evidence of any
provocation, other than a possible argument. ECF 515, PgID 1476-77.
The Michigan Court of Appeals upheld the trial
court’s decision and concluded that Elatrache “did not

App. 23
kill the victim in the heat of passion after adequate
provocation.” Elatrache, 2016 WL 1578937, at *7. In
reaching this conclusion, the Michigan Court of Appeals found that “defense counsel had difﬁculty mustering up an argument to support giving such an
instruction in the trial court buttresses the trial court’s
decision.” Id.
The state appellate court’s adjudication of
Elatrache’s claim is supported by the record and is
objectively reasonable. Although a witness testiﬁed
that Elatrache informed him there was an argument
that got “out of control,” there was no evidence that the
victim provoked Elatrache. Elatrache may not have
liked the victim, but those claims were not enough to
cause a reasonable person to lose control. The lesserincluded jury instruction on voluntary manslaughter
was therefore not required.
B. Involuntary Manslaughter
Involuntary manslaughter in Michigan “is the unintentional killing of another, without malice, during
the commission of an unlawful act not amounting to a
felony and not naturally tending to cause great bodily
harm; or during the commission of some lawful act,
negligently performed; or in the negligent omission to
perform a legal duty.” People v. Mendoza, 468 Mich.
527, 536 (2003). The trial court declined to instruct the
jury on involuntary manslaughter because the evidence did not fit the legal requirements for the offense. ECF 5-15, PgID 1477-78. The Michigan Court of

App. 24
Appeals agreed, stating that “[n]o evidence was presented that the death was caused by an unlawful act
not amounting to a felony nor naturally tending to
cause death or great bodily harm, or in negligently doing some lawful act.” Elatrache, 2016 WL 1578937 at
*8. The appellate court found that the evidence showed
Elatrache “struck the victim on the head numerous
times and strangled him with his hands, . . . [which]
clearly showed either an intent to kill or intent to
cause great bodily harm, and an involuntary manslaughter instruction was not supported by a rational
view of the evidence.” Id.
This conclusion was objectively reasonable because the severity of the victim’s injuries indicated
that the assailant acted intentionally and with malice.
As such, the evidence did not support a jury instruction
on voluntary or involuntary manslaughter, and the
state court’s rejection of Elatrache’s claim was reasonable. Elatrache therefore has no right to relief on his
ﬁrst claim even if it were cognizable on habeas review.
II.

The Jury Instructions on a Unanimous Decision

Elatrache next argued that the trial court violated
his right to a unanimous jury verdict and a fair trial
when the court instructed the jurors that they did not
have to reach a unanimous decision on the alternate
theories for the home-invasion charge.3 ECF 1, PgID
3

Michigan’s ﬁrst-degree home invasion statute reads:
A person who breaks and enters a dwelling with intent
to commit a felony, larceny, or assault in the dwelling,

App. 25
51. Although the jury acquitted Elatrache of home-invasion, the home-invasion charge was the predicate
felony supporting the felony-murder conviction. Elatrache therefore contended that the jury should not
have been instructed on alternate theories because the
criminal information (the charging document) did not
list alternative theories and that the trial court’s jury
instruction was not a model of clarity. Id. at 51, 55-58.
The Michigan Court of Appeals concluded that
Elatrache waived review of his claim by not objecting
to the jury instruction and that, in any event, the claim
lacked merit. Elatrache, 2016 WL 1578937 at *10.
A. Waiver
A waiver ordinarily is “the intentional relinquishment or abandonment of a known right or privilege.”
a person who enters a dwelling without permission
with intent to commit a felony, larceny, or assault in
the dwelling, or a person who breaks and enters a
dwelling or enters a dwelling without permission and,
at any time while he or she is entering, present in, or
exiting the dwelling, commits a felony, larceny, or assault is guilty of home invasion in the ﬁrst degree if at
any time while the person is entering, present in, or
exiting the dwelling either of the following circumstances exists:
(a) The person is armed with a dangerous
weapon.
(b) Another person is lawfully present in
the dwelling.
Mich. Comp. Laws § 750.110a(2). In Elatrache’s case, the alternative theories were that he broke and entered the victim’s home or
that he entered the home without permission.

App. 26
Johnson v. Zerbst, 304 U.S. 458, 464 (1983). Waiver extinguishes an error. See United States v. Olano, 507
U.S. 725, 733 (1993) (noting that “[m]ere forfeiture,
as opposed to waiver, does not extinguish an ‘error”).
Therefore, when a defendant knowingly waives an error, his or her challenge is forever foreclosed, and cannot be resurrected on appeal. United States v. Saucedo,
226 F.3d 782, 787 (6th Cir. 2000) (citing Olano, 507 U.S.
at 733). This rule applies on habeas corpus review of a
state prisoner’s conviction. See Morgan v. Lafler, 452 F.
App’x 637, 646 n.3 (6th Cir. 2011) (stating that, “[a]
though the district court found [the petitioner’s] juryinstruction claim forfeited by procedural default for
failure to object, the district court could just as easily
have rejected the claim on the basis of waiver”).
While it is true that “ ‘courts indulge every reasonable presumption against waiver’ of fundamental constitutional rights and . . . ‘do not presume acquiescence
in the loss of fundamental rights,’ ” Johnson, 304 U.S.
at 464 (footnotes omitted), the record supports the
state appellate court’s conclusion that Elatrache waived
review of his claim about the jury instruction on home
invasion. The trial court instructed the jury that “there
are two different manners in which home invasion in
the ﬁrst degree can occur and have been alleged by
the prosecutor’s ofﬁce,” by either entering without permission or breaking into the home. ECF 5-16, PgID
1588-91. And the trial court instructed the jury that
although they did not need to all agree on which theory
the conviction rests on, they did need to agree that the
prosecution proved beyond a reasonable doubt that

App. 27
Elatrache did one. Id. at 1589-90. Defense counsel did
not object. And during closing arguments, defense
counsel noted that “felony murder rests on a theory
that Ali Elatrache, on July 18th, either broke into that
house or that apartment, or somehow got in there
against the wishes of [the victim].” Id. at 1541. Finally,
following some deliberations, the jury sent a note to the
trial court asking: “while the theories of home invasion
can be split, does the overall verdict of home invasion
have to be unanimous?” ECF 5-17, PgID 1614. The trial
court answered yes. Id. at 1614-15. And, again, defense
counsel did not object.
Elatrache argued that the state court’s decision
was erroneous and an unreasonable application of federal law and the facts because the lack of an objection
is forfeiture, not a waiver. “[F]orfeiture is the failure to
make the timely assertion of a right.” Olano, 507 U.S.
at 733. Defense counsel, however, expressly approved
of the jury instructions, as read to the jury, by stating
that the instructions were ﬁne, with the exception of
the lack of jury instructions on manslaughter. ECF 516, PgID 1600. By expressing satisfaction with the jury
instructions, Elatrache intentionally relinquished or
abandoned a known right to object to the jury instructions, and “waived review of the alleged instructional
error.” People v. Head, 323 Mich. App. 526, 537 (2018)
(citing People v. Kowalski, 489 Mich. 488, 504 (2011)),
appeal denied, 503 Mich. 918 (2018).

App. 28
B. Procedural Default
Even if Elatrache did not waive his claim, it is procedurally defaulted. In the habeas context, a procedural default is “a critical failure to comply with state
procedural law.” Trest v. Cain, 522 U.S. 87, 89 (1997).
The Court “will not review the merits of [a state prisoner’s] claims, including constitutional claims, that a
state court declined to hear because the prisoner failed
to abide by a state procedural rule.” Martinez v. Ryan,
566 U.S. 1, 9 (2012).
Elatrache’s claim is deemed procedurally defaulted
if each of the following four elements is met: “(1) the
petitioner failed to comply with a state procedural rule;
(2) the state courts enforced the rule; (3) the state procedural rule is an adequate and independent state
ground for denying review of a federal constitutional
claim; and (4) the petitioner has not shown cause and
prejudice excusing the default.” Henderson v. Palmer,
730 F.3d 554, 560 (6th Cir. 2013) (citing Jalowiec v.
Bradshaw, 657 F.3d 293, 302 (6th Cir. 2011)). To determine whether a state procedural rule was applied to
bar a habeas claim, [courts] look “to the last reasoned
state court decision disposing of the claim.” Id. (citing
Guilmette v. Howes, 624 F.3d 286, 291 (6th Cir. 2010)).
These factors are easily met here. First, there is a
relevant state procedural rule that requires defendants in criminal cases to preserve a claim about a
trial court’s jury instruction by objecting to the
instruction at trial. Head, 323 Mich. App. at 537.

App. 29
Elatrache violated this rule by not objecting at trial to
the jury instruction on home invasion.
Second, the Michigan Court of Appeals enforced
the rule by stating that, based on the quoted excerpts
from trial, Elatrache had waived the issue and that he
could not harbor an error at trial and then use the error as an appellate parachute. Elatrache, 2016 WL
1578937, at *10 (citing People v. Szalma, 487 Mich. 708,
726 (2010)).
Third, the state procedural rule is an adequate
and independent basis for foreclosing federal review of
a constitutional claim if the rule is ﬁrmly established
and regularly followed. Taylor v. McKee, 649 F.3d 446,
450-51 (6th Cir. 2011). The rule requiring an objection
at trial to preserve a claim about a jury instruction was
ﬁrmly established and regularly followed long before
Elatrache’s trial in 2014. See, e.g., People v. Sabin, 242
Mich. App. 656, 657 (2000) (stating that “[a] party must
object or request a given jury instruction to preserve
the error for review”).
Fourth, although Elatrache argued that his trial
attorney was “cause” for his failure to object to the jury
instruction in question, ECF 7, PgID 2617, 2619, he did
not raise that argument as an independent claim in
state court. The doctrine of exhaustion of state remedies “generally requires that a claim of ineffective assistance be presented to the state courts as an
independent claim before it may be used to establish
cause for a procedural default.” Murray v. Carrier, 477
U.S. 478, 488-89 (1986). Elatrache raised a claim about

App. 30
trial counsel on appeal, but he did not argue that counsel was ineffective for failing to object to the jury instruction on the home invasion alternative theories.
Therefore, trial counsel cannot be deemed “cause” for
Elatrache’s procedural default.
In the absence of “cause and prejudice,” a habeas
petitioner may pursue a procedurally defaulted claim
only if he can demonstrate that failure to consider his
claim “will result in a fundamental miscarriage of justice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991).
“A fundamental miscarriage of justice results from the
conviction of one who is ‘actually innocent.’ ” Lundgren
v. Mitchell, 440 F.3d 754, 764 (6th Cir. 2006) (citing Carrier, 477 U.S. at 496). “To be credible, [a claim of actual
innocence] requires [the] petitioner to support his allegations of constitutional error with new reliable evidence—whether it be exculpatory scientiﬁc evidence,
trustworthy eyewitness accounts, or critical physical
evidence—that was not presented at trial.” Schlup v.
Delo, 513 U.S. 298, 324 (1995).
Elatrache has not raised any new evidence of actual innocence, and the evidence against him is overwhelming. A miscarriage of justice will therefore not
result if the Court does not address the substantive
merits of Elatrache’s claim about the jury instruction
on home invasion. His second claim is procedurally defaulted and therefore fails.

App. 31
C. The Merits
Finally, even if the claim was not waived or procedurally defaulted, Elatrache’s challenge to the unanimity jury instruction lacks merit because “the
Supreme Court [has] held that jurors are not constitutionally required to unanimously agree on alternative
theories of criminal liability.” United States v. Kim, 196
F.3d 1079, 1083 (9th Cir. 1999) (citing Schad v. Arizona,
501 U.S. 624 (1991)).
Similarly, under state law, jury unanimity is not
required on alternate theories when, as in Elatrache’s
case, a statute lists alternative means of committing
an offense which by themselves do not constitute
separate and distinct offenses. Elatrache, 2016 WL
1578937 at *10 (quoting People v. Johnson, 187 Mich.
App. 621, 629-30 (1991)). Thus, Elatrache “could have
been properly convicted of felony murder even if some
jurors believed that he broke into the apartment while
others believed he simply entered without permission.”
Id. The Court therefore declines to grant relief on
Elatrache’s claim that he was entitled to a speciﬁc unanimity jury instruction on ﬁrst-degree home invasion.
III. The Right of Confrontation
Elatrache, in his third claim, argued that the trial
judge deprived him of his right of confrontation by refusing to compel disclosure of a critical prosecution
witness’s pre-sentence investigation reports (PSIR).
ECF 1, PgID 60. The witness was Mark Fragel, the inmate who testiﬁed that Elatrache made incriminatory

App. 32
admissions to him while the two of them were conﬁned
in jail together.
Elatrache alleged that Fragel had an extensive
criminal record, but he was unable to impeach Fragel
with his criminal record and other speciﬁc information
about Fragel’s background because the trial court prevented him from reviewing Fragel’s PSIR. Id. at 61.
Elatrache asserted that, at a minimum, the trial court
should have ordered an in camera inspection to determine whether any of the PSIR contained impeachment
evidence. Id. He also contended that the prosecution
withheld information about Fragel from him, and he
maintained that the jurors would have had a signiﬁcantly different impression of Fragel’s credibility if
they had been provided with additional information
about Fragel. Id. at 62-63.
On appeal, the Michigan Court of Appeals held
that “there is absolutely no evidence that the prosecutor had any of the alleged documents in his possession”
and that Elatrache “failed to indicate how Fragel’s
PSIR’s would contain relevant information to his case.”
Elatrache, 2016 WL 1578937 at *13. As such, his “generalized assertion of a need to attack the credibility of
his accuser [does] not establish the threshold showing
of a reasonable probability that the records contain information material to his defense sufﬁcient to overcome the various statutory privileges.” Id. (citing
People v. Stanaway, 446 Mich. 643, 650 (1994)).

App. 33
A. Clearly Established Federal Law
The Sixth Amendment to the United States Constitution guarantees a defendant in a criminal prosecution “the right . . . to be confronted with the
witnesses against him.” U.S. Const. amend. VI. The
Clause is “applicable to the States through the Fourteenth Amendment,” Idaho v. Wright, 497 U.S. 805, 813
(1990), and it “includes the right to cross-examine
witnesses[.]” Richardson v. Marsh, 481 U.S. 200, 206
(1987).
A defendant’s right to confront the witnesses
against him, however, is not absolute. United States v.
Davis, 430 F.3d 345, 360 (6th Cir. 2005) (citing Norris
v. Schotten, 146 F.3d 314, 329 (6th Cir. 1998)). “Generally speaking, the Confrontation Clause guarantees an
opportunity for effective cross-examination, not crossexamination that is effective in whatever way, and to
whatever extent, the defense might wish.” Delaware v.
Fensterer, 474 U.S. 15, 20 (1985) (emphasis in original).
When it is merely the extent of cross-examination
that is limited, a trial court retains considerable discretion to bar exploration of a relevant subject on
cross-examination. Dorsey v. Parke, 872 F.2d 163, 16667 (6th Cir. 1989). “Where the trial court limits the extent of cross-examination, the inquiry for the reviewing court is ‘whether the jury had enough information,
despite the limits placed on otherwise permitted crossexamination, to assess the defense theory.’ ” Stewart v.
Wolfenbarger, 468 F.3d 338, 347 (6th Cir. 2006), as
amended on denial of reh’g and reh’g en banc (Feb. 15,

App. 34
2007) (quoting Dorsey, 872 F.2d at 167). Moreover, errors under the Confrontation Clause are subject to
harmless error analysis. Delaware v. Van Arsdall, 475
U.S. 673, 684 (1986); Vasquez v. Jones, 496 F.3d 564,
574 (6th Cir. 2007).
Elatrache’s related due process claim derives from
Brady v. Maryland, 373 U.S. 83 (1963), in which the
Supreme Court held that “suppression by the prosecution of evidence favorable to an accused upon request
violates due process where the evidence is material, either to guilt or to punishment, irrespective of the good
faith or bad faith of the prosecution[.]” Id. at 87. A true
Brady claim has three components: “The evidence at
issue must be favorable to the accused, either because
it is exculpatory, or because it is impeaching; that evidence must have been suppressed by the State, either
willfully or inadvertently; and prejudice must have ensued.” Strickler v. Greene, 527 U.S. 263, 281-82 (1999).
To show prejudice, Elatrache must establish that
the suppressed evidence is material—that “there is a
reasonable probability that, had the evidence been disclosed to the defense, the result of the proceeding
would have been different.” Kyles v. Whitley, 514 U.S.
419, 433 (1995). The question is whether “ ‘the favorable evidence could reasonably be taken to put the
whole case in such a different light as to undermine
conﬁdence in the verdict.’ ” Strickler, 527 U.S. at 290
(quoting Kyles, 514 U.S. at 435). Speculation about a
different outcome is not enough; “[t]he likelihood of a
different result must be substantial, not just conceivable.’ ” LaMar v. Houk, 798 F.3d 405, 416 (6th Cir. 2015)

App. 35
(quoting Harrington v. Richter, 562 U.S. 86, 112 (2011)).
That is, the likelihood of a different result must be
great enough to undermine conﬁdence in the verdict.
Wearry v. Cain, 136 S.Ct. 1002, 1006 (2016) (citing
Smith v. Cain, 565 U.S. 73, 75-76 (2012)).
B. Application
Elatrache was not prevented from cross-examining Fragel about his criminal background during trial.
He claimed instead that he “was unable to obtain speciﬁc information regarding Fragel’s complete criminal
activities, his psychiatric history, his prior cooperation
with law enforcement, his history of drug and alcohol
abuse and whether he had made false statements in
the past to the authorities, all matters that would be
disclosed in a [PSIR].” ECF 1, PgID 61. On direct examination by the prosecutor, however, Fragel admitted
that he had an extensive criminal background which
included property crimes, drug offenses, and some domestic violence; he also admitted that he had a drug
addiction at one time. ECF 5-12, PgID 1150-51.
On cross-examination, Fragel admitted that, during a fourteen-year period, he had committed twelve
felonies and sixteen misdemeanors. Id. at 1216-17.
Defense counsel was then permitted to question
Fragel in detail about his criminal history in three
counties, his current offense, and the favorable deal he
received from the prosecution in exchange for his testimony against Elatrache. Id. at 1217-25. When defense counsel asked Fragel whether he had committed

App. 36
any felonies in any other counties, Fragel responded, “I
think that about sums it up,” id. at 1223, and when defense counsel asked whether Fragel had used a mental
defense in one of his prior cases, Fragel stated that he
did not recall, id. at 1222.
The jury had enough information, despite the limits placed on the cross-examination of Fragel, to assess
the witness’s credibility. Further, Elatrache has not
shown a reasonable probability that the result of the
proceeding would have been different if he had acquired Fragel’s PSIR. His right of confrontation was
therefore not violated.
Additionally, Elatrache’s due process claim likewise
lacks merit as he merely speculated that material evidence was suppressed. Furthermore, the alleged constitutional errors were harmless, given the strength of
the evidence against Elatrache and the fact that the
prosecutor encouraged the jury to ignore Fragel’s testimony if they wanted to, because Fragel was only one
piece of the puzzle, and the State’s case did not rest on
Fragel’s testimony. ECF 5-16, PgID 1567-68. For all
these reasons, the state appellate court’s denial of
Elatrache’s constitutional claim was objectively reasonable. His third claim therefore fails.
IV.

The Prosecutor’s Remarks

Elatrache next alleged that the prosecutor deprived him of due process and a fair trial by making an
inﬂammatory opening statement and subsequently relying on evidence about Elatrache’s vulgarity, relationship with S, and threats to kill the assistant prosecutor

App. 37
and ofﬁcer in charge of the case. ECF 1, PgID 67-68,
74. He contended that the prosecutor’s remarks and
portrayal of him as a horrible and disgusting person
hindered the jury’s ability to judge the evidence fairly
and were intended to prejudice the jury against him.
Id. at 69-72, 76.
The Michigan Court of Appeals held that Elatrache
was not denied a fair trial because “[t]he prosecutor did
nothing more than repeat defendant’s own words” and
“did not make any statements that were not subsequently supported by the evidence presented during
trial.” Elatrache, 2016 WL 1578937, at *14. Because
Elatrache’s “conduct towards S was highly relevant to
the crime and formed the foundation of the case
against defendant,” the prosecutor did nothing improper. Id.
A. Clearly Established Federal Law
“On habeas review, ‘the Supreme Court has clearly
indicated that the state courts have substantial
breathing room when considering prosecutorial misconduct claims because constitutional line drawing [in
prosecutorial misconduct cases] is necessarily imprecise.’ ” Trimble v. Bobby, 804 F.3d 767, 783 (6th Cir.
2015) (quoting Slagle v. Bagley, 457 F.3d 501, 516 (6th
Cir. 2006)). Consequently, although prosecutors must
“refrain from improper methods calculated to produce
a wrongful conviction,” Viereck v. United States, 318
U.S. 236, 248 (1943), prosecutorial-misconduct claims

App. 38
are reviewed deferentially in a habeas case, Millender
v. Adams, 376 F.3d 520, 528 (6th Cir. 2004).
When the issue is the prosecutor’s remarks, the
“clearly established federal law” is the Supreme
Court’s decision in Darden v. Wainwright, 477 U.S. 168
(1986). Parker v. Matthews, 567 U.S. 37, 45 (2012) (per
curiam). In Darden, the Supreme Court held that it
“is not enough that the prosecutors’ remarks were
undesirable or even universally condemned.” 477 U.S.
at 181 (citation omitted). The relevant question is
whether the prosecutors’ comments “so infected the
trial with unfairness as to make the resulting conviction a denial of due process.” Id. (citing Donnelly v.
DeChristoforo, 416 U.S. 637 (1974)).
The initial question under Darden, however, “is
whether the prosecutor’s comments were improper.”
Stermer v. Warren, 959 F.3d 704, 725 (6th Cir. 2020)
(citing Darden, 477 U.S. at 180). “If a prosecutor’s comments were improper, the question becomes whether
they ‘so infected the trial with unfairness as to make
the resulting conviction a denial of due process.’ ” Id.
(quoting Darden, 477 U.S. at 180; Donnelly, 416 U.S. at
643).
To decide this question, “the remarks must be examined within the context of the trial to determine
whether the prosecutor’s behavior amounted to prejudicial error. In other words, the Court must consider
the probable effect the prosecutor’s response would
have on the jury’s ability to judge the evidence fairly.”
United States v. Young, 470 U.S. 1, 12 (1985). The

App. 39
Supreme Court has discussed several factors to consider in making this assessment, including the weight
of the evidence against the defendant, the tactical context of the prosecutor’s statements, and whether the
comments were invited by the defense’s own conduct.
Darden, 477 U.S. at 181-83; accord Young, 470 U.S. at
12-13,19-20. The nature and frequency of the improper
remarks can also determine whether the defendant’s
trial was rendered unfair See Berger v. United States,
295 U.S. 78,89 (1935) (“[W] e have not here a case
where the misconduct of the prosecuting attorney was
slight or conﬁned to a single instance, but one where
such misconduct was pronounced and persistent, with
a probable cumulative effect upon the jury which cannot be disregarded as inconsequential.”).
Here, the prosecutor’s remarks about Elatrache
during opening statements were pronounced and persistent. But the remarks were based on the evidence,
as opposed to the prosecutor’s personal opinion or some
misstatement of the facts. And the remarks were
quotes from Elatrache’s own text messages or recorded
phone calls to S. As such, the remarks were not improper.
The remarks also provided context for the prosecution’s case because they demonstrated Elatrache’s
animosity and anger toward the victim and S. Although
the remarks may have sounded inﬂammatory when
the prosecutor made them, the evidence later presented at trial demonstrated that the remarks were
not unwarranted characterizations. The state court’s
conclusion—that the disputed remarks were proper—

App. 40
was objectively reasonable, and relief therefore is not
warranted on Elatrache’s claim.
V.

Evidence of Other Criminal Activity

Elatrache further alleged that he was denied a fair
trial because the trial court allowed the prosecutor to
admit extensive evidence of other criminal activity attributed to him. ECF 1, PgID 76. The criminal activity
included aggravated stalking, several break-ins, thefts,
credit card fraud, and arson. Id. at 76, 82. Elatrache
asserted that the disputed evidence became the focus
of the trial, depicted him as a bad person, and was so
pervasive as to deny him a fundamentally fair trial. Id.
at 77. Elatrache also argued that the evidence was not
relevant because it involved dissimilar conduct and a
different victim, was unfairly prejudicial due to the nature of the other acts and the detailed testimony and
evidence that consumed much of the trial, and was
used to show propensity to commit criminal acts and
to prove that he acted in conformity with his criminal
character. Id. at 82-85.
Finally, Elatrache alleged that it was improper to
join the stalking count to his homicide case because the
stalking did not encompass the same conduct or transaction as the homicide. Id. at 80. He claimed that the
trial court erred by not allowing him to plead no contest to the stalking charge. Id. He contended that he
was forced to plead guilty to preserve his right to object
to testimony about the stalking. Id. at 81-82.

App. 41
The Michigan Court of Appeals, on the motion to
sever, held that “[a] ‘though the jury ultimately acquitted defendant of ﬁrst-degree premeditated murder, defendant’s actions prior to the murder—whether aimed
at S or aimed at the victim—were relevant to premeditation and deliberation. The trial court did not err in
denying defendant’s motion to sever where the complained-of actions were related to the homicide.”
Elatrache, 2016 WL 1578937, at *15. On the issue of
the trial court’s denial of Elatrache’s request to plead
no-contest to the stalking charge, the appellate court
found that there was “no reason for defendant to argue
that he was entitled, as a matter of law, to enter a no
contest plea.” Id. at *16. And as for the “other acts” evidence, the appellate court stated that “[t]he trial court
did not abuse its discretion when it permitted the prosecution to present other acts evidence” because it “was
offered for a proper purpose and was highly relevant.”
Id. at *18. Further, the evidence “was not offered for
the sole purpose of showing that defendant was a bad
person;” rather, “it was offered to give context to the
crime itself.” Id.
A. Joinder, the Inability to Plead No Contest,
and the Admission of Other Acts Evidence
Elatrache’s arguments that the trial court improperly allowed the stalking count to be joined to his homicide case and then refused to allow him to plead nocontest lack merit because those arguments are based
solely on state law. ECF 1, PgID 80-82. The Supreme
Court held that “it is not the province of a federal

App. 42
habeas court to reexamine state-court determinations
on state-law questions” and that “[i]n conducting habeas review, a federal court is limited to deciding
whether a conviction violated the Constitution, laws,
or treaties of the United States.” Estelle v. McGuire,
502 U.S. 62, 67-68 (1991).
Furthermore, “a defendant has no right to be offered a plea, nor a federal right that the judge accept
it.” Missouri v. Frye, 566 U.S. 134, 148 (2012) (internal
and end citations omitted). The Supreme Court has
stated that misjoinder of charges would rise to the
level of a constitutional violation “if it results in prejudice so great as to deny a defendant his Fifth Amendment right to a fair trial.” United States v. Lane, 474
U.S. 438, 446 n.8 (1986). But the Sixth Circuit has said
that this quote from Lane is only dicta, which does not
amount to “clearly established federal law” for purposes of 28 U.S.C. § 2254(d)(1). Mayﬁeld v. Morrow, 528
F. App’x 538, 541-42 (6th Cir. 2013).
Elatrache’s claim about other uncharged acts likewise lacks merit because “[t]here is no clearly established Supreme Court precedent which holds that a
state violates due process by permitting propensity evidence in the form of other bad acts evidence.” Bugh v.
Mitchell, 329 F.3d 496, 512 (6th Cir. 2003). Although
“the Supreme Court has addressed whether prior acts
testimony is permissible under the Federal Rules of
Evidence, it has not explicitly addressed the issue in
constitutional terms.” Id. at 513 (citations omitted).
Thus, “there is no Supreme Court precedent that the

App. 43
trial court’s decision could be deemed ‘contrary to’ under AEDPA.” Id.
Even if Elatrache’s claim were cognizable on habeas review, “states have wide latitude with regard to
evidentiary matters under the Due Process Clause,”
and an evidentiary ruling violates due process and
warrants habeas relief only if it “is especially egregious
and ‘results in a denial of fundamental fairness.’ ” Wilson v. Sheldon, 874 F.3d 470, 475-76 (6th Cir. 2017) (citations omitted); see also McAdoo v. Elo, 365 F.3d 487,
494 (6th Cir. 2004) (explaining that a state trial court’s
evidentiary error can rise to the level of a federal constitutional claim warranting habeas corpus relief if
“the error renders the proceeding so fundamentally
unfair as to deprive the petitioner of due process under
the Fourteenth Amendment”). Yet the Supreme Court
“has repeatedly rejected claims that prejudicial evidence violated due process.” Stewart v. Winn, No. 181204, 2020 WL 4282157, at *3 (6th Cir. July 27, 2020).
As such, “state and federal statutes and rules,” not the
Due Process Clause, “ordinarily govern the admissibility of evidence” in criminal trials. Perry v. New Hampshire, 565 U.S. 228, 237 (2012). “The fact that evidence
admitted as relevant by a court is shocking to the sensibilities of those in the courtroom cannot, for that reason alone, render its reception a violation of due
process.” Lisenba v. California, 314 U.S. 219, 228-29
(1941).
Here, the trial court permitted the prosecutor to
introduce evidence of Elatrache’s actions toward S to
provide motive. ECF 5-13, PgID 1251-52. The disputed

App. 44
evidence provided a context for the homicide charge. It
supported the prosecutor’s theory that Elatrache killed
the victim to control S so that she would stay in a relationship with him, ECF 5-16, PgID 1500-01, or because
the victim was interfering with his relationship with S,
ECF 5-2, PgID 239-40. Further, during the trial court’s
preliminary jury instructions, the trial court informed
the jurors that they would be hearing evidence that the
defendant committed crimes for which he was not on
trial. ECF 5-8, PgID 535-36. And the trial court read a
similar instruction to the jury shortly after S began
testifying, ECF 5-9, PgID 688-89, and during the
court’s charge to the jury at the conclusion of the case,
ECF 5-16, PgID 1591-92. Even Elatrache’s own brother
testified that a lot of what happened between Elatrache
and S was Elatrache’s fault, that Elatrache sent some
nasty messages to S, and that Elatrache occasionally
behaved very badly toward S. ECF 5-14, PgID 1339,
1364. The admission of “other acts” evidence was
therefore not so fundamentally unfair as to deprive
Elatrache of due process. He is not entitled to relief on
his ﬁfth claim.
VI. Trial Counsel
In his sixth and ﬁnal claim, Elatrache alleged that
he was denied his right to effective assistance of counsel when his trial attorney failed to object to inadmissible and inﬂammatory testimony from Fragel, the
jailhouse informant. ECF 1, PgID 86. He further alleged that his trial attorney was ineffective for failing to request a jury instruction on accident. Id. The

App. 45
Michigan Court of Appeals disagreed and rejected both
claims on the merits. Elatrache, 2016 WL 1578937 at
*18-19.
A. Clearly Established Federal Law
To prevail on his claim related to his trial counsel,
Elatrache must show that (1) his trial “counsel’s performance was deficient” and (2) “the deficient performance
prejudiced the defense.” Strickland v. Washington, 466
U.S. 668, 687 (1984). Unless he makes both showings,
it cannot be said that his convictions “resulted from a
breakdown in the adversary process that renders the
result unreliable.” Id.
The deﬁcient-performance prong “requires showing that counsel made errors so serious that counsel
was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.” Id. “[T]he defendant must show that counsel’s representation fell below
an objective standard of reasonableness.” Id. at 688.
The prejudice prong “requires showing that counsel’s
errors were so serious as to deprive the defendant of a
fair trial, a trial whose result is reliable.” Id. at 687. A
defendant must demonstrate “a reasonable probability
that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different. A reasonable probability is a probability sufﬁcient to undermine conﬁdence in the outcome.” Id. at 694.
“The standards created by Strickland and § 2254(d)
are both ‘highly deferential,’ and when the two apply
in tandem, review is ‘doubly’ so.” Richter, 562 U.S.

App. 46
at 105 (internal and end citations omitted). “When
§ 2254(d) applies, the question is not whether counsel’s
actions were reasonable. The question is whether there
is any reasonable argument that counsel satisﬁed
Strickland’s deferential standard.” Id.
B. Counsel’s Failure to Object to Fragel’s Comment
Elatrache argued that his trial counsel should
have objected to evidence that he had threatened to kill
the two prosecutors and the detective assigned to his
case. ECF 1, PgID 86. The prosecutor mentioned the
threat in his opening statement, ECF 5-8, PgID 594,
and Mark Fragel subsequently testiﬁed that Elatrache
had threatened to kill the prosecutors and the detective. ECF 5-12, PgID 1162. Elatrache contended that
the evidence was inadmissible under state law, irrelevant, highly inﬂammatory, and uncorroborated. ECF 1,
PgID 87-88.
The Michigan Court of Appeals opined that defense counsel very likely “decided not to object to
Fragel’s testimony as a tactical matter in order to
avoid drawing additional attention to it.” Elatrache,
2016 WL1578937, at *19. Indeed, “not drawing attention to [a] statement may be perfectly sound from a
tactical standpoint.” United States v. Caver, 470 F.3d
220, 244 (6th Cir. 2006). It is a sound tactic because
the typical remedy for a witness’s improper remark at
a jury trial is to ask the jury not to consider the remark, and “asking an individual not to think about a

App. 47
particular fact . . . calls attention to the fact that is to
be ignored.” Id. Moreover, “No breach the unreasonableness threshold, ‘defense counsel must so consistently fail to use objections, despite numerous and clear
reasons for doing so, that counsel’s failure cannot reasonably have been said to have been part of a trial
strategy or tactical choice.’ ” Schauer v. McKee, 401 F.
App’x 97, 101 (6th Cir. 2010) (citing Lundgren v. Mitchell, 440 F.3d 754, 774-75 (6th Cir. 2006)).
Here, to his credit, defense counsel moved for a
mistrial after the prosecutor stated, among other
things, that Elatrache planned to kill the prosecutors
and a detective. ECF 5-8, PgID 615-16. Defense counsel explained that he did not object sooner because the
harm had already been done, an objection would not
have done any good, and it would have called attention
to the prosecutor’s remarks. See id. at 616-17. Defense
counsel’s explanation, plus the fact that the trial court
denied his motion for a mistrial, supports the state appellate court’s conclusion that defense counsel did not
object to Fragel’s subsequent testimony for fear of
drawing attention to the disputed remark. Defense
counsel also may have concluded that an objection to
Fragel’s remark would have been futile due to the
trial court’s earlier ruling on counsel’s motion for a
mistrial. “[T]he failure to make futile objections does
not constitute ineffective assistance.” Altman v. Winn,
644 F. App’x 637, 644 (6th Cir. 2016). Defense counsel’s failure to object to Fragel’s remark about
Elatrache wanting to kill the two prosecutors and a
detective therefore did not fall below an objective

App. 48
standard of reasonableness. The Court will deny relief
on Elatrache’s sixth claim as it relates to defense counsel’s failure to object to Fragel’s remarks.
C. Counsel’s Failure to Request a Jury Instruction on Accident
Second, Elatrache claimed that his trial
attorney should have requested the following
jury instruction on accident:
1. The defendant says that he is not guilty of
murder because [the victim’s] death was accidental. By this Defendant means that he did
not mean to kill or did not realize that what
he did would probably cause death or cause
great bodily harm.
2. If the defendant did not mean to kill or did
not realize that what he did would probably
cause a death or cause great bodily harm,
then he is not guilty of murder.
ECF 1, PgID 90. But the medical examiner testiﬁed
that the victim was hit on the head several times with
a blunt object and strangled. ECF 11-4, PgID 3250;
ECF 512, PagelD 1087-88. And there was additional
evidence that Elatrache ﬂed the country after the
crime—although he informed his brother by phone
about two hours after the murder that he was traveling near Toledo, Ohio, ECF 5-14, PgID 1360, he had
crossed the bridge from Detroit, Michigan to Windsor,
Ontario and later traveled to Waterloo, Ontario, ECF
11-2, PgID 2917-18; ECF 11-3, PgID 3084-86. At his
arrest, he had possession of an airline itinerary to

App. 49
Lebanon, ECF 11-3, PgID 3087, and Fragel testiﬁed
that Elatrache had admitted to him that he beat the
victim with his ﬁsts, choked him to death, and ﬁnished
him off with a belt, ECF 5-12, PgID 1159– 60,1239. Although there was a dispute among the medical experts
as to whether the victim died from strangulation or a
heart attack, one medical doctor who testiﬁed for the
defense could not rule out strangulation as a cause of
death. Id. at 1205.
The evidence did not support a jury instruction
on accident, and, as the Michigan Court of Appeals
pointed out on appeal, it would have been futile to request a jury instruction on accident, given the trial
court’s conclusion that the record did not support an
instruction on manslaughter. Elatrache, 2016 WL1578937,
at *19. Defense counsel satisﬁed Strickland’s deferential standard. The state court’s rejection of Elatrache’s
claim therefore was not contrary to, or an unreasonable application of Strickland, and relief is not
warranted on Elatrache’s ﬁnal claim of ineffective assistance of trial counsel.
CONCLUSION
Based on the foregoing reasons, the state appellate court’s rejection of Elatrache’s claims was not
contrary to Supreme Court precedent, an unreasonable application of Supreme Court precedent, or an unreasonable determination of the facts. And the state
court’s decision was not so lacking in justification
that there was an error beyond any possibility for

App. 50
fair-minded disagreement. The Court will therefore
deny Elatrache’s petition for a writ of habeas corpus.
And because reasonable jurists would not ﬁnd the
Court’s resolution of Elatrache’s constitutional claims
debatable or wrong, the Court will also deny him a certiﬁcate of appealability. See Slack v. McDaniel, 529 U.S.
473, 484 (2000).
ORDER
WHEREFORE, it is hereby ORDERED that
Elatrache’s habeas corpus petition [1] is DENIED.
IT IS FURTHER ORDERED that a certiﬁcate of
appealability is DENIED.
SO ORDERED.
s/ Stephen J. Murphy, III
STEPHEN J. MURPHY, III
United States District Judge
Dated: August 11, 2020

I hereby certify that a copy of the foregoing document was served upon the parties and/or counsel of
record on August 11, 2020, by electronic and/or ordinary mail.
s/ David P. Parker
Case Manager

